              OFFICE OF
             INSPECTOR GENERAL
              U ....M   ...   ~..PARTMENT       OF THE INTEl



                                                                                                September 22, 2011

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up, Office of Financial
               Management

               Jonathan J. Jarvis
               Director, National Park Service

From:          Charles I Iaman           ~
               Regional Manager for Audits, Inspections, and Evaluations

Subject:       Verification Review of Three Recommendations from Our June 2007 Flash
               Report, "National Park Service: Hazardous Conditions of Yosemite's Wawona
               Tunnel Endangers Lives" (Report No. C-IN-NPS-0007-2007)
               Report No. NM-VS-NPS-000 1-2011

        The Office oflnspector General (OIG) has completed a verification review of three
recommendations presented in the subject evaluation report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of Financial
Management (PFM), Office of Policy, Management and Budget. In a memorandum dated
September 29, 2008, PFM notified OIG that the National Park Service (NPS) had completed the
actions required to close Recommendations 1 and 2 of the report. On May 17, 20 L0, PFM
notified OIG that NPS had completed actions required to close Recommendation 3.

Background

        Our June 2007 flash report, ·'National Park Service: I lazardous Conditions of Yosemite's
Wawona Tunnel Endangers Lives·· (Report No. C-IN-NPS-0007-2007), made three
recommendations regarding serious health and safety issues needing immediate action at
Yosemite National Park's Wawona Tunnel (Tunnel). These actions were needed to protect the
health and safety of employees, contractors, and the public.

        The Director of NPS responded on August 6, 2007, that the park had undertaken
short-term and long-term actions to address safety issues. Additional information was needed,
however, before the recommendations could be considered resolved. As a result, we referred all
three of the report's recommendations to the Assistant Secretary for Policy, Management and
Budget for implementation tracking on August 23, 2007.




                                Office of Audits, Inspections. and Evaluations 1 Lakewood, CO
       The scope of this review was limited to determining whether NPS took action to
implement the three reported recommendations. To accomplish our objective, we reviewed the
supporting documentation that PFM and NPS provided to us regarding each recommendation.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected. As
a result, this review was not conducted in accordance with the “Government Auditing Standards”
issued by the Comptroller General of the United States.

Results of Review

       Our current review found that NPS implemented all of the recommendations.

       Recommendation 1: Immediately identify and implement adequate safeguards to protect
       Tunnel users until deficiencies are corrected, or close the Tunnel until such safeguards
       can be put in place.

       Action Taken: The Yosemite Safety, Health and Environmental Office monitored the air
       quality of the Wawona Tunnel on six separate occasions from September 7, 2007, to July
       7, 2008. This verified that the carbon monoxide levels in the Tunnel did not present a
       health or safety hazard to the visiting public or anyone else working in or driving through
       the Tunnel. All sampling results were below the regulated exposure limits established by
       the National Institute of Occupational Safety and Health and the Occupational Health and
       Safety Administration. For other actions taken by NPS to mitigate hazards and reduce
       risks at the Tunnel, see Recommendation 3.

       Based on NPS's actions for monitoring the Tunnel's carbon monoxide levels, and in
       conjunction with other actions taken under Recommendation 3, we conclude that
       Recommendation 1 is resolved and implemented.

       Recommendation 2: Immediately develop and implement an Emergency Response Plan
       to address accidents, fires and other emergencies.

       Acton Taken: As a short-term action, NPS submitted an Interim Emergency Operations
       Plan to address accidents, fires, and other emergencies. This plan established
       responsibilities and guidelines for the proper execution of emergency response to
       incidents in the Tunnel. The Final Wawona Tunnel Emergency Operations Plan was
       scheduled to be completed after emergency repairs were completed (December 31, 2007)
       and after consultation with professionals experienced in tunnel emergency response.

       The Final Wawona Tunnel Emergency Operations Plan was provided to us on August 11,
       2011. The final plan contains a few minor changes from the interim plan and has a new
       section titled "Control Measures" to reduce potential tunnel emergencies, ensure
       acceptable air quality, and provide information on the most commonly hazardous gases
       found in the Tunnel.


                                                2
      After reviewing the changes made from the Interim Emergency Operations Plan to the
      Final Wawona Tunnel Emergency Operations Plan, we conclude that Recommendation 2
      is resolved and implemented.

      Recommendation 3: Prepare and implement a detailed action plan to bring the Tunnel
      into full compliance with current safety standards and regulations. The plan should
      include all applicable recommendations from the engineering report.

      Action Taken: In a memorandum dated May 17, 2010, PFM informed OIG that NPS had
      prepared and implemented a detailed action plan to bring the Tunnel into full compliance
      with current safety standards, including all applicable recommendations from the
      engineering report. The action plan included a summary of the actions taken and the
      status of two action items that were still in process of completion. Upon review of the
      documentation, PFM determined that NPS met the intent of Recommendation 3 and
      considered it closed and implemented.

      The Action Plan submitted to PFM details seven accomplishments to bring the Tunnel
      into full compliance with current safety standards. The NPS Audit Liaison Officer stated
      that one of the two remaining action items has been completed since the May 17, 2010
      memo was submitted to PFM.

      After reviewing the detailed action submitted to PFM on May 17, 2010, and the
      completion of one of the two remaining action items since the memo was issued to PFM,
      we conclude that Recommendation 3 is resolved and implemented.

Conclusion

      We informed NPS officials of the results of this review on September 15, 2010, and they
agreed with the results of our review.

cc:   Nancy Thomas, Audit Liaison, Department of the Interior
      Alexandra Lampros, Liaison Officer, Office of the Secretary
      Vera Washington, Audit Liaison Officer, National Park Service




                                              3
